HHS/OIG, Audit - "Follow-up Audit of the Medicaid Drug Rebate Program in
Pennsylvania," (A-03-08-00201)
Department of Health and Human Services
Office of Inspector General -- AUDIT
"Follow-up Audit of the
Medicaid Drug Rebate Program in Pennsylvania," (A-03-08-00201)
February 27, 2008
Complete Text of Report is available in PDF format (220 kb). Copies can also be obtained by
contacting the Office of Public Affairs at 202-619-1343.
EXECUTIVE SUMMARY:
Our objectives were to determine whether the Department of Public Welfare
(the State agency) had (1) implemented the recommendations made in our previous
audit of the Pennsylvania drug rebate program and (2) established controls over
collecting rebates on single source drugs administered by physicians.
Although the State agency did not concur with our findings, it did implement
the recommendations made in our previous audit.  The State agency
introduced a new Medicaid Management Information System, the PROMISe System,
which corrected the weaknesses noted in our prior review.  In addition, the
State agency established controls over collecting rebates on single source drugs
administered by physicians.  Accordingly, we have no recommendations at
this time.